February 16, 2007

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – eBuy Monthly Reconciliation Procedures
              (Report Number CA-AR-07-001)

This report presents the results of our audit of the eBuy reconciliation procedures
(Project Number 06YG036CA000). We conducted the audit in response to a request
from Postal Service Supply Management to review eBuy reconciliation internal controls
and procedures.

The audit confirmed that internal controls over eBuy reconciliations need improvement
and that eBuy purchases totaling $9.7 million (or 90 percent) of the $10.8 million
purchases reviewed were at risk. We will report the $9.7 million in non-monetary
benefits as assets at risk in our Semiannual Report to Congress.

Management agreed with all of our findings and recommendations and has initiatives in
progress or planned to improve payment reconciliation compliance. Management’s
comments and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Judy
Leonhardt, Director, Supply Management and Facilities, or me at (703) 248-2100.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Marie K. Martinez
    Deborah Kendall
eBuy Monthly Reconciliation Procedures                                 CA-AR-07-001




                                  TABLE OF CONTENTS

 Executive Summary                                                               i

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objectives, Scope, and Methodology                                         2
     Prior Audit Coverage                                                       3

 Part II

 Audit Results                                                                  4

 eBuy Monthly Reconciliation Procedures Could Be Improved                       4

     Recommendations                                                            6
     Management’s Comments                                                      7
     Evaluation of Management’s Comments                                        7

 Reconciliation Requirements in Material Logistics Bulletins Were               7
 Missing

     Recommendation                                                             8
     Management’s Comments                                                      8
     Evaluation of Management’s Comments                                        8

 Active Material Logistics Bulletin Index Web Page Could Be Improved            9

     Recommendations                                                           10
     Management’s Comments                                                     10
     Evaluation of Management’s Comments                                       10

 Other Issue                                                                   10

 Appendix A. General Overview of the Material Logistics Bulletin               12
             Process

 Appendix B. General Overview of the eBuy Reconciliation Process               13
eBuy Monthly Reconciliation Procedures   CA-AR-07-001




 Appendix C. Prior Audit Coverage                14

 Appendix D. Management’s Comments               15
eBuy Monthly Reconciliation Procedures                                          CA-AR-07-001



                                 EXECUTIVE SUMMARY
 Introduction                 The U.S. Postal Service Office of Inspector General
                              conducted this audit of eBuy reconciliation procedures in
                              response to a request from Supply Management. Our
                              overall audit objective was to determine if eBuy users
                              performed reconciliations each month in accordance with
                              required procedures.

 Results in Brief             Procedures for reconciling monthly eBuy billing summaries
                              to receipt reports need improvement. Specifically,
                              85 percent of the eBuy FEDSTRIP accounts reviewed were
                              not reconciled and did not have adequate support
                              documentation associated with the billing summaries.
                              Administrative Support Manual (Issue 13), Chapter 7, and
                              Material Logistics Bulletins (MLBs) require summaries to be
                              reconciled with receipt reports and the supporting
                              documentation to be retained for 2 years. The majority of
                              eBuy users were not aware of these requirements and did
                              not retain adequate support documentation associated with
                              the monthly billing summary report. As a result, $9.7 million
                              (or 90 percent) of the $10.8 million total purchases reviewed
                              were at risk.

                              MLBs for eBuy supplies and services did not contain the
                              reconciliation requirements because some contracting
                              officers and representatives from Supply Management
                              Operations were not aware of the MLB template
                              requirement. As a result, MLBs did not consistently include
                              the requirements to reconcile monthly billing summaries to
                              receipt reports.

                              In addition, relevant MLBs were not kept current on the
                              Postal Service’s Active Material Logistics Bulletin Index
                              Web page. Several MLBs for active national contracts listed
                              on the web page had expired, leading users to conclude
                              active contracts had also expired. Contracting officers and
                              representatives from National Materials Customer Service
                              did not monitor the web page to ensure management was
                              updating MLBs. As a result, expired MLBs for national
                              contracts could lead eBuy users to mistakenly conclude
                              they were no longer required to use these contracts.




                                               i
eBuy Monthly Reconciliation Procedures                                            CA-AR-07-001




 Summary of                   We made seven recommendations to the Vice President
 Recommendations              (VP), Supply Management, to improve the controls
                              surrounding the eBuy reconciliation process and ensure
                              compliance with current internal control requirements. We
                              recommended that the VP, Supply Management, coordinate
                              with the VP, Controller, the VP, Chief Technology Officer,
                              and with Financial Control and Support to: (1) add detailed
                              reconciliation instructions to the eBuy monthly billing
                              summary cover page; (2) add reconciliation requirements to
                              the eBuy tutorial for e-catalog purchases; (3) conduct a
                              feasibility assessment for adding a reconciliation official
                              sign-off requirement within eBuy, and (4) ensure random
                              compliance monitoring and evaluation of eBuy billing
                              reconciliations. We also recommended that the VP, Supply
                              Management: (5) require contracting officers responsible for
                              preparing the MLBs and representatives from Supply
                              Management Operations (including National Materials
                              Customer Service) to consistently use the required format;
                              (6) require contracting officers and representatives from
                              National Materials Customer Service to periodically monitor
                              and remove expired MLBs and update MLBs when
                              contracts have been extended; and (7) include an accurate
                              index of national contracts on the MLB Web page.

 Summary of                   Management agreed with the recommendations and
 Management’s                 associated assets at risk. They have initiatives in progress
 Comments                     and corrective actions planned to address the issues in this
                              report. Management indicated that both the eBuy monthly
                              billing summary cover page and the tutorial will be modified
                              and the feasibility for adding a sign-off requirement within
                              eBuy will be assessed. Also, management confirmed that
                              Financial Control and Support will oversee eBuy billing
                              reconciliations.

                              Management has established procedures for key personnel
                              to verify that posted Material Logistics Bulletins contain all
                              appropriate information and include the required monthly
                              reconciliation action requirements.

                              Management will establish reminders for maintaining the
                              "Active Material Logistics Bulletin Index" and they will
                              redesign the Material Logistics Bulletins Web page.




                                               ii
eBuy Monthly Reconciliation Procedures                                       CA-AR-07-001




 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the recommendations and should correct the issues
 Comments                     identified in the findings.




                                             iii
eBuy Monthly Reconciliation Procedures                                             CA-AR-07-001



                                         INTRODUCTION
 Background                   On July 16, 2001, the Postal Service, through the Supply
                              Chain Management discipline, introduced eBuy as a new
                              way to buy supplies and services using the Postal Service
                              Intranet. eBuy automates the buying process end-to-end
                              from ordering to payment, making the process more
                              efficient. The first catalogs implemented for eBuy were
                              office supplies, computer hardware, and cluster box units.
                              More recently, utilities and telecommunications have been
                              added. Training for eBuy is web-based, modular, and self-
                              paced.

                              On December 23, 2002, the Postal Service’s Chief Financial
                              Officer and Chief Operating Officer issued a letter advising
                              all employees who have web access that they must use
                              eBuy for all requisitions effective January 11, 2003, and
                              outlining basic internal controls for reconciliation
                              requirements.

                              As of November 2006, there were approximately 97 active
                              catalogs established on eBuy offering thousands of items
                              eBuy users can purchase. More than 70,000 postal
                              requisitioners and approval managers regularly make
                              requests, obtain approvals, and receive advanced shipping
                              notices for online e-catalog supplies and services. The
                              eBuy system also enables supplier collaboration (via e-mail
                              messages) and uses online electronic invoicing, invoice
                              certification, and payment processes. During fiscal year
                              (FY) 2005, eBuy processed $503 million in e-catalog
                              requisitions. eBuy also supports invoice certification for
                              paperless invoices from utility companies and
                              telecommunications suppliers.

                              eBuy puts buying in the hands of the person needing goods
                              or services, while retaining control of authorization policies,
                              business rules, and supplier relationships and agreements.
                              The December 23, 2002, letter also stated buyers have
                              online reports (monthly billing summaries) to reconcile the
                              price of the delivered goods with what the Postal Service
                              paid. This is the final step in the reconciliation certification
                              process. This basic internal control is similar to the Postal
                              Service’s credit card purchase reconciliation process.

                              Before placing an order, employees must have a valid
                              Federal Standard Requisitioning and Issue Procedures


                                                1
eBuy Monthly Reconciliation Procedures                                          CA-AR-07-001



                              (FEDSTRIP) number. The Postal Service has established
                              FEDSTRIP numbers identifying each of the almost 45,000
                              ordering locations.

                              Invoicing and payments are made through the Electronic
                              Data Interchange using the FEDSTRIP account and are
                              automatically charged to the associated finance number
                              through the San Mateo Accounting Service Center (ASC).
                              An eBuy monthly billing summary report can be generated
                              online at any time for a specified month, fiscal year, and
                              FEDSTRIP.

                              Material Logistic Bulletins (MLBs) are used to communicate
                              contract award, ordering information, and material
                              management policies and procedures to eBuy users. They
                              also provide detailed information on the use of national
                              contracts and are to contain summary reconciliation
                              requirements.

                              Supply Management's MLBs require eBuy users to
                              reconcile the summary for orders placed during the month
                              with receipt reports. At the end of each month, the San
                              Mateo ASC sends each receiving office a hard-copy
                              summary report, which shows itemized eBuy orders. After
                              the user reconciles each line item, the summary must be
                              signed and dated to indicate its accuracy. The office must
                              maintain all reconciliation documentation together (packing
                              slips, credit memos, and summaries) for a 2-year period.

 Objective, Scope, and        Our audit objective was to determine if users performed
 Methodology                  eBuy reconciliations each month in accordance with the
                              required accounting reconciliation procedures. Specifically,
                              we determined whether users reconciled monthly eBuy
                              billing summary reports with the receipt reports.

                              To accomplish our audit objective, we judgmentally selected
                              218 FEDSTRIP accounts for on-site review. We visited
                              Postal Service installations nationwide to obtain and
                              analyze summaries dated from April 1, 2005, through
                              March 31, 2006. Our analysis of reconciliation procedures
                              included a review of monthly billing summaries, supporting
                              documentation, and interviews with ordering officials to
                              identify root causes for non-performance of reconciliations.




                                              2
eBuy Monthly Reconciliation Procedures                                            CA-AR-07-001




                              We conducted this audit from May 2006 through February
                              2007 in accordance with generally accepted government
                              auditing standards and included such tests of internal
                              controls as we considered necessary under the
                              circumstances. We discussed our observations and
                              conclusions with management officials and included their
                              comments where appropriate.

                              To perform our analysis, we used Postal Service computer-
                              processed data contained in the eBuy system and Postal
                              Service records available on the Postal Service Blue Pages’
                              Supply Management Web site. Specifically, we matched
                              FEDSTRIP numbers for locations visited to invoice data in
                              the eBuy system and on the Blue Pages’ Supply
                              Management Web site. We did not audit or
                              comprehensively validate the data because our conclusions
                              and recommendations were based on our examination of
                              documentation and interviews, while computer-processed
                              data was used to calculate non-monetary benefits (assets at
                              risk). We believe the computer-processed data was
                              sufficiently reliable to report the amount of assets at risk.

 Prior Audit Coverage         The U.S. Postal Service Office of Inspector General issued
                              a financial audit report titled Fiscal Year 2002 Postal Service
                              Financial Statements Audit - San Mateo IT/ASC, Report
                              Number FT-AR-03-006, dated January 23, 2003. The
                              report disclosed internal control and compliance issues
                              relating to the validation and reconciliation of goods and
                              services purchased through eBuy and other electronic
                              invoicing systems. Management agreed with the findings,
                              stating that the issuance of a letter and a Postal Bulletin
                              notice conveying the importance of documenting the receipt
                              of goods and services and performing monthly reconciliation
                              should correct the issues. In addition, they agreed to a
                              format which required MLBs to contain monthly billing
                              summary reconciliation requirements. For more details, see
                              Appendix C.




                                               3
eBuy Monthly Reconciliation Procedures                                                 CA-AR-07-001



                                         AUDIT RESULTS
                              The Postal Service needs to improve its monthly
                              reconciliation procedures for eBuy purchases and ensure
                              eBuy users complete reconciliations as required. Of the
                              218 FEDSTRIP accounts reviewed, 186 (or 85 percent) did
                              not perform the required monthly eBuy reconciliations. In
                              addition, during a prior audit, the Postal Service agreed that
                              MLBs should contain the required reconciliation procedures.
                              A review of current MLBs disclosed that 17 of 53 MLBs did
                              not contain these requirements. Management did not
                              update the Active Material Logistics Bulletin Index Web page
                              for changes when contracts were extended or no longer
                              active. The web page listed 11 expired MLBs; however, we
                              determined eight of these contracts were still active.

 eBuy Monthly                 Our audit disclosed significant weaknesses in the
 Reconciliation               reconciliation process for purchases made through eBuy.
 Procedures Could Be          Specifically, we found that users:
 Improved
                                  •      Did not perform monthly reconciliations as required,
                                  •      Did not adequately maintain supporting
                                         documentation, and
                                  •      Were unaware of the reconciliation requirement or
                                         insufficiently trained to conduct the reconciliations in
                                         compliance with the requirement.

                              We reviewed 218 FEDSTRIP accounts nationwide. During
                              the period from April 2005 through March 2006, FEDSTRIP
                              purchases for these accounts totaled $10.8 million.

                              We determined that 186 (or 85 percent) did not perform the
                              required monthly reconciliations. Further, 117 eBuy users
                              did not maintain adequate supporting documentation to
                              show that goods and services were received.

                              The December 23, 2002, letter from the Chief Financial
                              Officer and Chief Operating Officer made the use of eBuy
                              mandatory and established several payment controls.
                              These controls included the required use of summary
                              reports to reconcile receipt of goods with amounts paid.




                                                    4
eBuy Monthly Reconciliation Procedures                                            CA-AR-07-001




                              The Administrative Support Manual (Issue 13), Chapter 7,
                              Section 72, paragraph 722.64 - Documentation and
                              Reconciliation, requires eBuy users to reconcile purchases
                              to payment summaries and retain supporting documentation.
                              Documentation includes sales and credit receipts, delivery
                              tickets or packing slips, buying logs, dispute documentation,
                              and payment records.

                              In addition, Supply Management's MLBs require eBuy users
                              to reconcile the summary for orders placed during the month
                              with receipt reports. At the end of each month, San Mateo
                              ASC sends each receiving office a hard-copy summary
                              report, which shows itemized eBuy orders. After the user
                              reconciles each line item, the summary must be signed and
                              dated to indicate its accuracy. All reconciliation
                              documentation (packing slips, credit memos, and
                              summaries) must be retained together for a 2-year period.

                              These conditions occurred for several reasons. First,
                              interviews of 137 FEDSTRIP account users showed that 112
                              (or 82 percent) were unaware of the reconciliation
                              requirements and 2-year file retention guidelines outlined in
                              the MLBs, and 116 (or 85 percent) had not received any
                              type of orientation or training for reconciliation requirements
                              (see figure 1). Further, reconciliation instructions were not
                              readily available on the Summary Cover Page or the eBuy
                              tutorial. We also found that receipt reports were not
                              maintained together with summaries, as required, because
                              users either discarded or filed the receipts somewhere else.
                              Finally, there are no requirements for supervisors to ensure
                              users are conducting the summary reconciliation in
                              compliance with Postal Service procedures.




                                               5
eBuy Monthly Reconciliation Procedures                                                                CA-AR-07-001



                                                    Figure 1. Major Reasons for Inadequate Controls
                                                              (April 1, 2005- March 31, 2006)

                                              150
                                                                                    128
                                              130               116
                                                    112
                                              110                        101




                                 eBuy Users
                                              90
                                              70                                                      Control was
                                                                                                      inadequate
                                              50                             36
                                                       25         21                                  Control was
                                              30
                                                                                           9          adequate
                                              10
                                              -10
                                                      1           2         3          4
                                                      Reasons for Inadequate Controls


                                                    Results of Interviews with 137 eBuy Users:
                               1.              112 of 137 (82%) eBuy users were unaware of reconciliation
                                               requirements.
                               2.              116 of 137 (85%) eBuy users had not received proper
                                               training.
                               3.              101 of 137 (74%) eBuy users were unaware of Material
                                               Logistics Bulletins.
                               4.              128 of 137 (93%) eBuy users performed purchasing,
                                               receiving, and reconciliation actions.

                              The purchases for unreconciled accounts totaled $9.7 million
                              (or 90 percent) of the $10.8 million reviewed. Because of
                              the significant internal control weakness, we considered
                              $9.7 million of assets to be at risk for loss.

 Recommendations              We recommend the Vice President, Supply Management,
                              coordinate with:

                                               1. The Vice President, Controller, to add detailed
                                                  reconciliation instructions to the eBuy monthly
                                                  billing summary cover page.

                                               2. The Vice President, Chief Technology Officer, to
                                                  add reconciliation requirements to the eBuy
                                                  tutorial for e-catalog purchases.

                                               3. The Vice President, Chief Technology Officer, to
                                                  conduct a feasibility assessment for adding a
                                                  reconciliation official sign-off requirement within
                                                  eBuy.




                                                            6
eBuy Monthly Reconciliation Procedures                                            CA-AR-07-001




                                         4. Financial Control and Support to ensure random
                                            compliance monitoring and evaluation of eBuy
                                            billing reconciliations.

 Management’s                 Management agreed with our finding, recommendations,
 Comments                     and associated assets at risk. Management indicated they
                              will engage responsible personnel to modify both the eBuy
                              monthly billing summary cover page and the tutorial.
                              Responsible personnel will also assess the feasibility for
                              adding a sign-off requirement within eBuy. In addition,
                              management has confirmed that Financial Control and
                              Support will oversee eBuy billing reconciliations.

 Evaluation of                Management’s comments are responsive to the audit finding
 Management’s                 and recommendations. Management’s actions taken or
 Comments                     planned should correct the issues identified in the finding.

 Reconciliation               Some MLBs for eBuy supplies and services did not contain
 Requirements in              the required summary reconciliation requirements because
 Material Logistics           contracting officers and representatives from National
 Bulletins Were               Materials Customer Service (NMCS) were not aware of the
 Missing                      MLB template. As a result, eBuy users were not uniformly
                              informed of the requirement to reconcile summaries to
                              receipt reports.

                              The Postal Service uses MLBs to communicate contract
                              award, ordering information, and material management
                              policies and procedures. We determined 17 MLBs for eBuy
                              supplies or services did not contain summary reconciliation
                              requirements. We interviewed contracting officers and
                              representatives from NMCS. The representatives are
                              responsible for reviewing and approving MLBs prior to
                              placement on the Supply Management Active Material
                              Logistics Bulletin Index Web page. (See Appendix A for the
                              process.) They were not aware of the MLB template and the
                              required monthly reconciliation action requirements.

                              The Postal Service included the reconciliation requirements
                              in the MLB template, which was created on July 22, 2003.
                              The requirements state that: (1) packing slips must be
                              signed and dated to evidence receipt of goods;
                              (2) summaries must be reconciled with receipt reports; and
                              (3) reconciliation documentation must be retained for
                              2 years. (See Appendix B for the process).

                                                  7
eBuy Monthly Reconciliation Procedures                                             CA-AR-07-001




                              The Supply Management MLB Web site listed 80 MLBs,
                              53 of which should have contained reconciliation
                              requirements. We excluded the other 27 MLBs from our
                              review because they were related to policy changes,
                              procedures for turning in excess equipment, disposition
                              instructions, etc. Reconciliation requirements were included
                              in 36 of the 53 MLBs. However, 17 of the 53 MLBs did not
                              contain the requirements and 12 of the 17 were issued after
                              the MLB template was created on July 22, 2003.

                              The critical messages conveyed through the MLBs
                              concerning monthly reconciliation requirements were not
                              reaching the intended audience. As shown in figure 1, 101
                              FEDSTRIP users out of 137 (or 74 percent) were unaware of
                              the MLBs. As a result, eBuy users were not uniformly
                              informed of the requirement to reconcile summaries to
                              receipt reports.

 Recommendation               We recommend the Vice President, Supply Management,
                              take steps, such as reminder policy bulletins or
                              memorandums, to ensure:

                                         5. Contracting officers who are responsible for
                                            preparing the Material Logistics Bulletins and
                                            representatives from National Materials Customer
                                            Service who are responsible for reviewing and
                                            approving the bulletins are aware of the template
                                            and the monthly reconciliation action
                                            requirements.

 Management’s                 Management agreed with our finding and recommendation.
 Comments                     Management indicated they have established review
                              procedures to verify that posted Material Logistics Bulletins
                              include all appropriate information. In addition, management
                              will provide this report to key personnel to ensure they are
                              aware of the template and the monthly reconciliation action
                              requirements.

 Evaluation of                Management’s comments are responsive to the audit finding
 Management’s                 and recommendations. Management’s actions taken or
 Comments                     planned should correct the issues identified in the finding.




                                                   8
eBuy Monthly Reconciliation Procedures                                           CA-AR-07-001




 Active Material              The Postal Service did not update its Active Material
 Logistics Bulletin           Logistics Bulletin Index Web page in a timely manner and
 Index Web Page               we found it was not easy to use as a tool in identifying
 Could Be Improved            national contracts. The web page included 11 expired
                              MLBs and it was difficult to locate MLBs for specific
                              contracts. This occurred because contracting officers and
                              representatives from NMCS generally did not monitor the
                              web page. As a result, eBuy users could mistakenly
                              conclude that use of national contracts was no longer
                              required because it appeared the contracts were no longer
                              active.

                              Contracting officers are responsible for ensuring the
                              accuracy of the MLBs related to their contracts. In addition,
                              the MLB revised procedures, dated May 20, 2005, outlined
                              the “Procedures for the Preparation and Issuance of MLBs”
                              and designated the responsibility for maintaining the index of
                              active MLBs to representatives from NMCS. Contracting
                              officers and representatives from NMCS stated they
                              generally did not monitor the status of the MLBs and/or
                              format requirements as outlined on the MLB template.

                              While attempting to identify specific MLBs, we found the
                              design of the MLB Web page did not allow easy
                              identification of national contracts. We located the active
                              MLB index, but the index only showed MLB numbers rather
                              than contract numbers, making it difficult for eBuy users to
                              locate national contracts. The index included 11 expired
                              MLBs; however, 8 of the 11 were still active. The other two
                              MLBs were closed and we could not determine the status of
                              one MLB because it did not include a contract number.

                              When MLBs are not updated on the "Active Material
                              Logistics Bulletin Index" Web page for contracts that have
                              actually been extended, it appears to purchasers that use of
                              these national contracts is no longer required. As a result,
                              ordering officials may resort to procuring goods and services
                              from local vendors at higher costs.




                                               9
eBuy Monthly Reconciliation Procedures                                               CA-AR-07-001




 Recommendations              We recommend the Vice President, Supply Management:

                                         6. Establish a mechanism to remind contracting
                                            officers and representatives from National
                                            Materials Customer Service to remove expired
                                            Material Logistics Bulletins from the "Active
                                            Material Logistics Bulletin Index" Web page and
                                            update these bulletins when contacts have been
                                            extended.

                                         7. Require representatives from National Materials
                                            Customer Service to redesign the Material
                                            Logistics Bulletins Web page to allow easy
                                            identification of the goods or services offered from
                                            national contracts.

 Management’s                 Management agreed with our finding and recommendations.
 Comments                     Management indicated they will establish reminders for
                              maintaining the "Active Material Logistics Bulletin Index" and
                              they will redesign the Material Logistics Bulletins Web page.

 Evaluation of                Although management’s comments are responsive to the
 Management’s                 audit recommendations, they did not adequately address all
 Comments                     the issues identified in the finding. Management plans to
                              direct staff to remove expired MLBs from the Web site if
                              originators do not respond to reminder notices within 30
                              days. However, this could result in employees erroneously
                              removing MLBs for extended contracts. We would suggest
                              that management require a response from MLB originators
                              prior to removing an MLB on the Web site.

 Other Issue                  During the audit, we noted an internal control weakness
                              related to eBuy purchasing, receiving, and reconciliation
                              duties. Specifically, the majority of FEDSTRIP account
                              holders submitted eBuy orders for goods, received these
                              goods, and were responsible for the reconciliation actions
                              pertaining to the same orders. As shown in figure 1 above,
                              128 of 137 (or 93 percent) of eBuy ordering officials received
                              goods and services and performed the summary
                              reconciliation procedures.

                              Effective internal control activities play an important role in
                              reducing risk of error, waste or fraud. Government
                              Accountability Office (GAO) Standards for Internal Control in

                                                   10
eBuy Monthly Reconciliation Procedures                                            CA-AR-07-001



                              the Federal Government (GAO/AIMD-00-21.3.1), November
                              1999, require management to separate key duties to reduce
                              the risk of fraud, waste, or abuse.

                              In addition, Postal Service Handbook AS-701, Material
                              Management, June 2005, recognizes the importance of
                              separating duties as resources allow. This handbook
                              outlines the basic concept of material management and
                              contains criteria applicable to the separation of duties.
                              Specifically, Section 244-21, states “The person who
                              purchased the item should not be authorized to receive the
                              item.”

                              Allowing one person to order via eBuy, receive goods and
                              services, and reconcile summaries to receipt reports
                              increases the risk of fraud, waste or abuse. The advantages
                              associated with this control could be realized at installations
                              large enough to accommodate separation of duties.

                              Accordingly, the Postal Service should consider separating
                              eBuy purchasing, receiving, and reconciliation duties at
                              installations large enough to accommodate such separation
                              of duties.

 Management’s                 Management took exception with this suggestion. They
 Comments                     stated that they believe the Postal Service achieves the
                              necessary checks and balances through the ordering,
                              approval, and budgeting processes.

 Evaluation of                We recognize management’s concern regarding the impact
 Management’s                 of separation of duties on costs, particularly at smaller
 Comments                     installations. However, the Postal Service recognized the
                              importance of this control in its Handbook AS-701, which
                              prohibits the person who purchased the item from receiving
                              the item. In addition, other businesses, government
                              agencies, and the GAO recognize separation of duties as a
                              key internal control. Thus, we continue to believe
                              management should implement this control where
                              installation size and staff permit.




                                               11
eBuy Monthly Reconciliation Procedures        CA-AR-07-001




                                         12
eBuy Monthly Reconciliation Procedures        CA-AR-07-001




                                         13
eBuy Monthly Reconciliation Procedures                                         CA-AR-07-001




                    APPENDIX C – PRIOR AUDIT COVERAGE

The OIG San Mateo Financial Statement team conducted work related to eBuy
reconciliation procedures as part of the fiscal year (FY) 2002 Financial Statement audit.
The results were disclosed in the financial audit report entitled, Fiscal Year 2002 Postal
Service Financial Statements Audit - San Mateo IT/ASC (Report Number FT-AR-03-
006, dated January 23, 2003). The report disclosed that Postal Service personnel did
not maintain documentation to confirm receipt of goods ordered in 19 of 38 electronic
invoices. Without this supporting documentation, Postal Service personnel could not
verify that goods paid for were received.

Management agreed with the report’s recommendations and agreed to take corrective
action by the end of Postal Quarter III, FY 2003 as follows:

   •   Reinforce the concerns raised in the audit and the existence of the procedures to
       Supply Management staff via the Supply Management Infrastructure (SMI)
       electronic newsletter. Specifically, the eBuy MLB template would be attached to
       the next newsletter. (Issued July 18, 2003.)

   •   Issue a letter to all officers mandating the use of eBuy. (Issued December 23,
       2002.)

   •   Issue a Postal Bulletin notice covering the existing procedures and relay the
       importance of always documenting that goods and services paid for were actually
       received. (Issued June 26, 2003.)

   •   Cover the importance of sound reconciliation procedures in the upcoming
       revision to Administrative Support Manual, Section 722, Local Buying Authority.
       (All actions were scheduled to be completed by Postal Quarter 3, FY 2003.)




                                            14
eBuy Monthly Reconciliation Procedures                CA-AR-07-001



                  APPENDIX D. MANAGEMENT’S COMMENTS




                                         15
eBuy Monthly Reconciliation Procedures        CA-AR-07-001




                                         16
eBuy Monthly Reconciliation Procedures        CA-AR-07-001




                                         17
